APPENDIX C
Opinion of the United States Court of Appeals for the Fifth Circuit in
United States v. Ganzer, 922 F.3d 579 (5th Cir.),
cert. denied, 140 S. Ct. 276 (2019)

United States v. Ganzer, 922 F.3d 579 (2019)

922 F.3d 579
United States Court of Appeals, Fifth Circuit.

UNITED STATES of
America, Plaintiff - Appellee
v.
James Kenneth GANZER,
Jr., Defendant - Appellant
No. 17-51042
|
FILED April 24, 2019
Synopsis
Background: Defendant convicted of possession of child
pornography appealed from order of the United States District
Court for the Western District of Texas, Lee Yeakel, J., which
denied his motion to suppress evidence obtained against
him through Federal Bureau of Investigation's (FBI) use of
malware to identify and prosecute users of child pornography
website that operated on anonymity network.

The Court of Appeals, Engelhardt, Circuit Judge, held
that even if network investigative technique (NIT) warrant
authorizing search of defendant's computer was improperly
issued, good faith exception to exclusionary rule applied.
Affirmed.
*580 Appeal from the United States District Court for the
Western District of Texas, Lee Yeakel, U.S. District Judge
Attorneys and Law Firms
Joseph H. Gay, Jr., Richard Louis Durbin, Jr., Assistant U.S.
Attorneys, U.S. Attorney's Office, Western District of Texas,
San Antonio, TX, for Plaintiff-Appellee.
Bradford W. Bogan, Assistant Federal Public Defender,
Maureen Scott Franco, Federal Public Defender, Federal
Public Defender's Office, Western District of Texas, San
Antonio, TX, for Defendant-Appellant.
Before SMITH, DUNCAN, and ENGELHARDT, Circuit
Judges.

Opinion
ENGELHARDT, Circuit Judge:
This case is one of many filed around the country concerning
the implications of a warrant issued in the Eastern District
of Virginia (“EDVA”), which authorized the Federal Bureau
of Investigation (“FBI”) to use certain malware to identify
and prosecute users of a child-pornography website known
as “Playpen” that operated on an anonymity network.
Defendant-Appellant, James Kenneth Ganzer, Jr. (“Ganzer”),
like dozens of others similarly-situated, moved the district
court to suppress the evidence obtained against him as a result
of the warrant, which led to his prosecution for possession of
child pornography. He now appeals the district court’s denial
of his motion.
To date, eight of our sister circuits have addressed issues
identical to those before us. See generally, United States
v. Moorehead, 912 F.3d 963 (6th Cir. 2019); United States
v. Kienast, 907 F.3d 522 (7th Cir. 2018), petition for cert.
filed (U.S. Mar. 22, 2019) (No. 18-1248); United States v.
Henderson, 906 F.3d 1109 (9th Cir. 2018), petition for cert.
filed *581 (U.S. Apr. 1, 2019) (No. 18-8694); United States
v. Werdene, 883 F.3d 204 (3rd Cir. 2018), cert. denied, –––
U.S. ––––, 139 S.Ct. 260, 202 L.Ed.2d 174 (Oct. 1, 2018);
United States v. McLamb, 880 F.3d 685 (4th Cir. 2018), cert.
denied, ––– U.S. ––––, 139 S.Ct. 156, 202 L.Ed.2d 95 (Oct.
1, 2018); United States v. Levin, 874 F.3d 316 (1st Cir. 2017);
United States v. Horton, 863 F.3d 1041 (8th Cir. 2017), cert.
denied, ––– U.S. ––––, 138 S.Ct. 1440, 200 L.Ed.2d 721 (Apr.
2, 2018); and United States v. Workman, 863 F.3d 1313 (10th
Cir. 2017), cert. denied, ––– U.S. ––––, 138 S.Ct. 1546, 200
L.Ed.2d 748 (Apr. 16, 2018).
For the reasons set forth herein, we now join each of
those circuits in holding that the good-faith exception to the
exclusionary rule set forth in United States v. Leon, 468
U.S. 897, 104 S.Ct. 3405, 82 L.Ed.2d 677 (1984), applies
to save the fruits of the warrant at issue from suppression.
Accordingly, we AFFIRM the district court’s denial of
Ganzer’s motion to suppress.

I.
In December of 2014, the FBI learned from a foreign
law enforcement agency that a United States-based Internet
Protocol (“IP”) address was associated with the child-

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Ganzer, 922 F.3d 579 (2019)

pornography website Playpen. A search warrant obtained in
January of 2015 allowed FBI agents to seize a copy of the
server that was assigned the suspect IP address;1 determine
that the IP address in fact contained a copy of Playpen;
and place a copy of the server on a computer server at a
government facility in the EDVA. Subsequently, the FBI
was able to apprehend the administrator of Playpen at his
home in Naples, Florida and assume control of the website.
For investigative purposes, the FBI continued to operate the
website from the government-controlled server in the EDVA
for a limited period of time.
Playpen operated on an anonymity network known as
“The Onion Router” or “Tor.”2 Tor software, which is
publicly accessible, protects the privacy of network users
by “bouncing their communications around a distributed
network of relay computers run by volunteers all around the
world, thereby masking the user’s actual IP address.” This
feature made it impossible for federal agents to determine the
identities of the administrators and users of Playpen without
employing additional investigative techniques.
Accordingly, the FBI requested and obtained a warrant from
a magistrate judge in the EDVA (“the EDVA magistrate”),
which allowed it to deploy a Network Investigative Technique
(“NIT”) from the government-controlled server in the EDVA.
(Such warrant will hereinafter be referred to as the “NIT
warrant.”) The NIT was a form of malware that augmented
the content sent by Playpen to the computers of Playpen
users with directions instructing those computers to send
identifying information to a computer controlled by the
government. Specifically, per the terms of the NIT warrant,
the NIT collected the following information from each
computer used to login into Playpen: the computer’s IP
address and when the NIT determined same; a unique
identifier for the computer generated by the NIT; the type
of operating system used by the computer and the operating
system’s active username; whether the NIT had already
*582 been sent to the computer; the computer’s host name;
and the computer’s media access control.
Through its use of the NIT, the FBI was able to link a Playpen
user operating under the username of “marleyboy” with an
IP address that it later determined was associated with an
individual named Robert Ahr (“Ahr”) residing in Austin,
Texas. With this and other information, the FBI obtained a
warrant from a magistrate judge in the Western District of
Texas allowing a search of Ahr’s residence.3 Both Ahr and
Ganzer were present at the time federal agents executed the

warrant. Ahr denied any involvement with child pornography.
Ganzer, on the other hand, agreed to be interviewed and
admitted to using his laptop to view child pornography
and access Playpen under the username “marleyboy.” He
subsequently confirmed these admissions in writing during
an interview at the Austin Police Station. A preliminary
examination of Ganzer’s laptop revealed approximately 61
video files and 16,546 images containing child pornography.
On December 20, 2016, an indictment was filed in the
United States District Court for the Western District of Texas
charging Ganzer with possession of child pornography in
violation of 18 U.S.C. § 2252A(a)(5)(B) and (b)(2).
In advance of his trial date, Ganzer filed a motion to suppress
“the evidence illegally obtained during the search of his home
and all fruits of this illegal search, including, but not limited
to, inculpatory statements Ganzer made to police”—all of
which he contended was discovered as a result of the NIT
warrant. Ganzer argued that the NIT warrant, which allowed
the government “to deploy malware to search [his] computer
in Texas and countless computers all over the world ... was
invalid because it (1) violated the Federal Magistrate’s Act,
(2) violated Rule 41(b) of the Federal Rules of Criminal
Procedure, and (3) lacked particularity.” Ganzer also argued
that even if the NIT warrant was valid, its scope was limited to
computers in the EDVA and, therefore, did not extend to his
computer in Texas. Additionally, he urged that the good-faith
exception to the exclusionary rule recognized by the Supreme
Court in United States v. Leon, 468 U.S. 897, 104 S.Ct.
3405, 82 L.Ed.2d 677 (1984), is inapplicable with respect
to the NIT warrant, since the warrant was issued without
jurisdiction, and its constitutional defects were so obvious that
a reasonable law enforcement officer could not rely upon it.
The district court denied Ganzer’s motion to suppress. The
court agreed with Ganzer that the issuance of the NIT
warrant violated § 636(a) of the Federal Magistrates Act
(“§ 636(a)”),4 28 U.S.C. § 636, and Rule 41(b) of the
Federal Rules of Criminal Procedure (“Rule 41(b)”),5 finding
*583 that the warrant impermissibly authorized a search
of Ganzer’s computer outside of the EDVA magistrate’s
district.6 Nevertheless, the court concluded that suppression
was not warranted since the Leon good-faith exception to
the exclusionary rule applied. After his motion to suppress
was denied, Ganzer pleaded guilty to the charge against him,
specifically reserving in his plea agreement the right to appeal
the motion’s denial, and was sentenced to 60 months of
imprisonment, followed by ten years of supervised release.
This appeal followed.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Ganzer, 922 F.3d 579 (2019)

II.
“When examining a district court’s ruling on a motion to
suppress, we review questions of law de novo and factual
findings for clear error,” viewing the evidence “in the
light most favorable to the prevailing party.” United States
v. Wallace, 885 F.3d 806, 809 (5th Cir. 2018) (internal
quotation marks and citations omitted). We will “uphold a
district court’s denial of a suppression motion if there is any
reasonable view of the evidence to support it.” United States
v. Contreras, 905 F.3d 853, 857 (5th Cir. 2018) (quoting
United States v. Michelletti, 13 F.3d 838, 841 (5th Cir. 1994)
(en banc)). Along these lines, “[w]e may affirm the district
court’s ruling on a motion to suppress based on any rationale
supported by the record.” Wallace, 885 F.3d at 809 (quoting
United States v. Waldrop, 404 F.3d 365, 368 (5th Cir. 2005)).

III.
On appeal, Ganzer claims that the district court correctly
concluded that the EDVA magistrate did not have authority
to issue the NIT warrant under § 636(a) and Rule 41(b),
since the warrant authorized a search of computers outside of
her jurisdiction. He contends that the court erred, however,
in determining that the good-faith exception to suppression
is applicable under the circumstances of this case. First,
Ganzer asserts that because the EDVA magistrate did not have
jurisdiction to issue the NIT warrant, the warrant was void
ab initio, making the searches conducted pursuant to it akin
to warrantless searches. He states that the Supreme Court
has never extended the good-faith exception to apply in the
context of a warrant so-categorized. Ganzer *584 recognizes
that all other circuit courts to address challenges to the NIT
warrant have found the good-faith exception to be applicable
but maintains that those courts reached the incorrect result and
urges this court to decline to extend the exception to cases
involving warrants that are void ab initio.7
Ganzer next argues that, in any event, the good-faith
exception should not apply here because the government
“acted recklessly or with gross negligence” in seeking the NIT
warrant, since it knew that Rule 41(b) did not allow for its
issuance. As discussed in more detail below, Ganzer supports
this assertion by pointing to pre-NIT-warrant efforts of the
Department of Justice (“DOJ”) to have Rule 41(b) amended
to permit magistrates to issue warrants authorizing the use of

remote-access investigative techniques. Ganzer consequently
concludes that suppressing the evidence at issue in this
case will serve the goal of deterrence by discouraging the
government from asking magistrate judges to issue warrants
that it knows they do not have jurisdiction to issue.
For its part, the government makes little effort to defend the
validity of the warrant. Instead, it focuses on the applicability
of the good-faith exception and urges us to follow the lead of
the other circuits courts that have addressed the issue.

IV.
A.
Because the primary focus of the parties’ briefing is on the
good-faith exception to the exclusionary rule and because we
conclude that the exception is applicable here, we decline
to address the merits of whether the EDVA magistrate had
legal authority to issue the NIT warrant and assume, without
deciding, that she lacked such authority. We further assume
that a Fourth Amendment violation occurred as a result of
the warrant’s issuance. Thus, we proceed directly to our
discussion of the good-faith exception and the propriety of its
application in the context of this case.
The exclusionary rule was created by the Supreme Court
to “supplement the bare text” of the Fourth Amendment,
which “protects the right to be free from ‘unreasonable
searches and seizures,’ but ... is silent about how this right
is to be enforced.” Davis v. United States, 564 U.S. 229,
231, 131 S.Ct. 2419, 180 L.Ed.2d 285 (2011). It operates
by generally “bar[ring] the prosecution from introducing
evidence obtained by way of a Fourth Amendment violation.”
Id. The purpose of the rule is to deter violations of the Fourth
Amendment—not to redress the injury of the victim of an
unreasonable search or seizure. Id. at 236–37, 131 S.Ct. 2419.
Thus, application of the rule is “not a personal constitutional
right.” Id. at 236, 131 S.Ct. 2419 (quoting Stone v. Powell, 428
U.S. 465, 486, 96 S.Ct. 3037, 49 L.Ed.2d 1067 (1976)). Nor
is it automatic in the face of a Fourth Amendment violation.
Herring v. United States, 555 U.S. 135, 140, 129 S.Ct. 695,
172 L.Ed.2d 496 (2009) (citing Illinois v. Gates, 462 U.S. 213,
223, 103 S.Ct. 2317, 76 L.Ed.2d 527 (1983)).
Expounding upon on these principles and following an
evolving line of cases in *585 which it had developed a costbenefit balancing approach to application of the exclusionary

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Ganzer, 922 F.3d 579 (2019)

rule, the Supreme Court officially recognized a “good-faith”
exception to the rule in United States v. Leon. 468 U.S. at
907–913, 104 S.Ct. 3405. The Leon Court narrowly defined
the exception as allowing admission at trial of “evidence
obtained by officers acting in reasonable reliance on a search
warrant issued by a detached and neutral magistrate” but later
invalidated. Id. at 900, 104 S.Ct. 3405. The Court, however,
invoked broader Fourth Amendment and exclusionary-rule
principles in arriving at its holding. In particular, and relevant
to the case before us, the Court emphasized that “the
exclusionary rule is designed to deter police misconduct”—
not judicial errors or misconduct.8 Id. at 916, 104 S.Ct. 3405.
On the flip side, the Court noted, “it cannot be expected,
and should not be applied, to deter objectively reasonable
law enforcement activity.” Id. at 919, 104 S.Ct. 3405. Indeed,
where “the officer is acting as a reasonable officer would
and should act in similar circumstances,” “excluding the
evidence will not further the ends of the exclusionary rule
in any appreciable way.” Id. at 920, 104 S.Ct. 3405 (internal
quotation marks and citation excluded).
In conducting its analysis, the Leon Court further pointed
to the “substantial social costs exacted by the exclusionary
rule for the vindication of Fourth Amendment rights”—
namely, “guilty defendants go[ing] free or receiv[ing] reduced
sentences as a result of favorable plea bargains.” Id. at 907,
104 S.Ct. 3405. “Particularly when law enforcement officers
have acted in objective good faith or their transgressions have
been minor,” the Court noted, “the magnitude of the benefit
conferred on such guilty defendants offends basic concepts of
the criminal justice system.” Id. at 907–08, 104 S.Ct. 3405.
Ultimately, the Court concluded that its “evaluation of the
costs and benefits of suppressing reliable physical evidence
seized by officers reasonably relying on a warrant issued by a
detached and neutral magistrate” compelled “the conclusion
that such evidence should be admissible in the prosecution’s
case in chief.” Id. at 913, 104 S.Ct. 3405. The Court clarified,
however, that suppression remains an appropriate remedy
where “it is clear that ... the officer [had] no reasonable
grounds for believing that the warrant was properly issued.”9
Id. at 922–23, 104 S.Ct. 3405.
Since its inception, the Supreme Court has expanded the reach
of the good-faith exception to other contexts. See, e.g., Davis,
564 U.S. at 232, 238–40, 131 S.Ct. 2419 (discussing a line of
Supreme Court cases applying the good-faith exception and
extending application of the exception to searches conducted
“in objectively reasonable reliance on binding appellate
precedent” that is later overruled); *586 Herring, 555 U.S. at

137–38, 144, 147–48, 129 S.Ct. 695 (applying the good-faith
exception where police reasonably relied upon a computer
database record that, due to the negligence of a police
employee, showed a recalled warrant to still be in effect);
Arizona v. Evans, 514 U.S. 1, 3–4, 15–16, 115 S.Ct. 1185,
131 L.Ed.2d 34 (1995) (applying the good-faith exception
where an officer who conducted a search incident to an arrest
had reasonably relied on an electronic police record that, due
to a clerical error, indicated that a quashed arrest warrant
remained outstanding); Illinois v. Krull, 480 U.S. 340, 342,
349–50, 107 S.Ct. 1160, 94 L.Ed.2d 364 (1987) (extending
application of the good-faith exception to searches conducted
in reasonable reliance on subsequently invalidated statutes).
In Davis, the Supreme Court summarized the core of its
post-Leon exclusionary-rule holdings as follows:
[T]he deterrence benefits of exclusion vary with the
culpability of the law enforcement conduct at issue. When
the police exhibit deliberate, reckless, or grossly negligent
disregard for Fourth Amendment rights, the deterrent value
of exclusion is strong and tends to outweigh the resulting
costs. But when police act with an objectively reasonable
good-faith belief that their conduct is lawful, or when
their conduct involves only simple, isolated negligence, the
deterrence rationale loses much of its force, and exclusion
cannot pay its way.
Davis, 564 U.S. at 238, 131 S.Ct. 2419 (internal quotation
marks and citations omitted).

B.
As previously indicated, Ganzer’s primary argument on
appeal is that the good-faith exception categorically cannot
apply under circumstances where a warrant is void ab initio—
a description he gives to the NIT warrant. Ganzer does not
cite any authority in support of his proposition. Instead, he
relies on the fact that the Supreme Court has not specifically
considered and applied the good-faith exception in the context
of a warrant that is void from its inception. He further insists,
without explanation, that warrants that are void ab initio
have a defect that is “fundamental” and, therefore, require
unique treatment in a good-faith exception analysis. Having
assumed that the EDVA magistrate lacked statutory authority
to issue the NIT warrant, we will also assume, for argument’s
sake, that the warrant was void ab initio and, therefore, never
had any legal effect. Even with these assumptions, Ganzer’s
argument fails.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Ganzer, 922 F.3d 579 (2019)

As the Supreme Court has recognized, whether a Fourth
Amendment violation exists and what type of violation is
present are separate and distinct questions from the question
of whether the sanction of exclusion is appropriate in a
certain case. See Leon, 468 U.S. at 906, 104 S.Ct. 3405
(“The wrong condemned by the [Fourth] Amendment is ‘fully
accomplished’ by the unlawful search or seizure itself, ...
and the exclusionary rule is neither intended nor able to
‘cure the invasion of the defendant’s rights which he has
already suffered.’ ” (quoting Stone, 428 U.S. at 540, 96 S.Ct.
3037)). The fundamental flaw in Ganzer’s argument is that
it improperly focuses the exclusion inquiry on the character
of the underlying Fourth Amendment violation, as opposed
to whether exclusion would sufficiently further the purpose
of the Fourth Amendment. See Herring, 555 U.S. at 141, 129
S.Ct. 695 (“[T]he exclusionary rule ... applies only where it
results in appreciable deterrence.” (internal quotation marks
and citation omitted)). The latter question is answered by
looking at “the culpability of *587 the law enforcement
conduct.” Herring, 555 U.S. at 143, 129 S.Ct. 695.
With the focus properly on the behavior of the law
enforcement officials involved, there is no reason to
distinguish warrants that are void ab initio from warrants that
are later invalidated or recalled, or even from later-invalidated
precedent or statutes—each of which, the Supreme Court has
held, can be reasonably relied upon by officers in conducting
a search. See Leon, 468 U.S. at 900, 104 S.Ct. 3405; Herring,
555 U.S. at 137–38, 144, 147–48, 129 S.Ct. 695; Davis, 564
U.S. at 232, 238-40, 131 S.Ct. 2419; Krull, 480 U.S. at 342,
349–50, 107 S.Ct. 1160. In other words, the conduct of an
officer who reasonably and in good faith relies on a warrant
issued by a magistrate lacking jurisdiction to issue it is no
more culpable than that of an officer who reasonably and
in good faith relies, for instance, on a faulty indication in
a database that a recalled warrant remains outstanding. See
Herring, 555 U.S. at 137–38, 144, 147–48, 129 S.Ct. 695. See
also Werdene, 883 F.3d at 216 (“[T]he issuing magistrate’s
lack of authority has no impact on police misconduct, if the
officers mistakenly, but inadvertently, presented the warrant
to an innocent magistrate.” (citation omitted)); Henderson,
906 F.3d at 1118 (holding that “[a]pplication of the good faith
exception does not depend on the existence of a warrant, but
on the executing officer’s objectively reasonable belief that
there was a valid warrant”). Therefore, we reject Ganzer’s
argument that the good-faith exception to the exclusionary
rule categorically cannot apply to warrants that are void ab
initio.10 This holding is in accordance with the well-reasoned
decisions of each of our sister circuits to have considered this

issue in the context of the NIT warrant. See Moorehead, 912
F.3d at 968–69; Kienast, 907 F.3d at 527–28; Henderson, 906
F.3d at 1118–19; Werdene, 883 F.3d at 216–17; McLamb, 880
F.3d at 691; Horton, 863 F.3d at 1050–51; Workman, 863 F.3d
at 1317–19.

C.
Having concluded that the good-faith exception can apply in
circumstances involving a warrant that is void ab initio, we
turn to the question of whether the exception can properly
be applied under the facts of this case, again presuming that
the EDVA magistrate lacked statutory authority to issue the
NIT warrant. As previously noted, Ganzer asserts that the
exception does not apply because of the government’s lack
of good faith. Specifically, he argues that the government
acted either “recklessly or with gross negligence in seeking
the [NIT] warrant,” since it knew the warrant it sought
was “beyond the scope of Rule 41(b).” He contends that
such knowledge is demonstrated by efforts of the DOJ well
before the NIT warrant was issued to have Rule 41(b)
amended to specifically allow for warrants like the NIT
warrant.11 Ganzer claims that these *588 efforts resulted
from the refusal of a magistrate judge in the Southern District
of Texas to issue a similar warrant in the context of a
fraud investigation. See In re Warrant to Search a Target
Computer at Premises Unknown, 958 F.Supp.2d 753 (S.D.
Tex. 2013). According to Ganzer, “the fact that the DOJ
took specific and concrete action in response to that decision
demonstrates an official recognition on the part of the federal
law enforcement apparatus as a whole that the decision set
forth the correct interpretation of Rule 41’s limits in this
setting;” and, therefore, federal agents could not have acted
in good faith in requesting the NIT warrant. We disagree with
Ganzer’s assessment.
Preliminarily, we note that in Leon, the Supreme Court
identified four situations that would indicate the presence of
bad faith and call for application of the exclusionary rule,
despite a warrant having been issued: 1) “the magistrate or
judge in issuing [the] warrant was misled by information in an
affidavit that the affiant knew was false or would have known
was false except for his reckless disregard of the truth”; 2)
“the issuing magistrate wholly abandoned his judicial role”;
3) the “affidavit [in support of the warrant is] so lacking in
indicia of probable cause as to render official belief in its
existence entirely unreasonable”; and 4) the “warrant [is] so
facially deficient—i.e., in failing to particularize the place to

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

United States v. Ganzer, 922 F.3d 579 (2019)

be searched or the things to be seized—that the executing
officers cannot reasonably presume it to be valid.” 468 U.S.
at 923, 104 S.Ct. 3405 (internal quotation marks and citations
omitted). The challenge posed by Ganzer does not correspond
to any of these scenarios, and we do not find it to be otherwise
compelling.
To be sure, whether the NIT warrant’s issuance was legitimate
under § 626(a) and Rule 41(b) was questionable at the time
it was issued. The government does not dispute this. This
is because the NIT warrant “pose[d] difficult conceptual
questions” regarding the search that it authorized. Kienast,
907 F.3d at 528. The NIT was a “sophisticated tool”
developed by the FBI in a world of rapidly changing cyber
technology in response to the “daunting task of [unmasking,
locating, and] apprehending tens of thousands of individuals
engaged in perverse crimes but cloaked in anonymity through
their use of Tor.” Id. at 529. Whether this new technology
fit within the *589 bounds of Rule 41(b) when it was
developed was not readily apparent, particularly given that
there was no federal appellate court precedent regarding the
permissibility of remote-access investigative techniques at the
time. McLamb, 880 F.3d at 689, 691. That being said, it was
neither plain nor obvious that NIT warrant could not properly
be issued under Rule 41(b). This is confirmed by the fact that
several federal district courts have concluded that the EDVA
magistrate had authority to issue the warrant under Rule
41(b)(4) concerning “tracking device[s].” See United States
v. Austin, 230 F.Supp.3d 828, 832–34 (M.D. Tenn. 2017)
(collecting cases and concluding that the NIT constitutes a
“tracking device” within the meaning of Rule 41(b)(4)).
Under these circumstances, we do not construe the
government’s efforts to have Rule 41(b) amended to
specifically allow for warrants like the NIT warrant as an
admission that such warrants were not previously allowed, but
rather as an attempt to clarify an existing law’s application to
new circumstances. The government did not act unreasonably
in seeking such a clarification. We note that this conclusion is
consistent with the Fourth Circuit’s holding in McLamb with
respect to a similar argument by the appellant. In McLamb,
the appellant argued that the FBI’s consultation with DOJ
attorneys prior to seeking the NIT warrant regarding such
a warrant’s legality demonstrated a “guilty conscience” on
the part of the FBI. See McLamb, 880 F.3d at 691. The
court rejected this argument, instructing that where there is
not “definitive precedent upon which law enforcement can
rely when utilizing cutting edge investigative techniques ...
consultation with government attorneys is precisely what

Leon’s ‘good faith’ expects of law enforcement.” Id. See
also Moorehead, 912 F.3d at 970 (rejecting the appellant’s
argument that government attempts to have Rule 41(b)
amended demonstrated knowledge of the NIT warrant’s
illegality). Likewise, we conclude that the government acted
in accordance with the expectations of the Fourth Amendment
by seeking to clarify the bounds of an imprecise statutory
grant of authority in the face of advancing technology.
Moreover, we do not otherwise detect foul play in the process
by which the FBI sought the NIT warrant. As the First Circuit
aptly recognized in Levin:
Faced with the novel question of whether an NIT warrant
can issue—for which there was no precedent on point—
the government turned to the courts for guidance. The
government presented the magistrate judge with a request
for a warrant, containing a detailed affidavit from an
experienced officer, describing in detail its investigation,
including how the NIT works, which places were to be
searched, and which information was to be seized.
874 F.3d at 323. Like the Levin court, “[w]e see no benefit
in deterring such conduct” and agree that, “if anything, such
conduct should be encouraged, because it leaves it to the
courts to resolve novel legal issues.” Id. See also Workman,
863 F.3d at 1320–21 (concluding that it was reasonable for the
federal agents who applied for and executed the NIT warrant
to “defer to the magistrate judge on ... nuanced legal issues”).
To the extent that the EDVA magistrate erred in issuing the
NIT warrant, as we have noted, such an error is not within the
purview of the exclusionary rule. See Leon, 468 U.S. at 916,
104 S.Ct. 3405.
In light of the foregoing, we reject Ganzer’s assertion that
the good-faith exception cannot apply under the facts of this
case due to bad faith, gross negligence or reckless conduct
by the government officials *590 involved. To the contrary,
we conclude that the law enforcement officials involved
in the issuance and execution of the NIT warrant acted
“with an objectively reasonable good-faith belief that their
conduct [was] lawful.” Davis, 564 U.S. at 238, 131 S.Ct. 2419
(internal quotation marks and citations omitted). Again, our
conclusion is consistent with the holdings of each of our sister
circuits to have considered challenges to the NIT warrant. See
Moorehead, 912 F.3d at 970–71; Kienast, 907 F.3d at 528–
29; Henderson, 906 F.3d at 1119; Werdene, 883 F.3d at 217–
18; McLamb, 880 F.3d at 690–91; Levin, 874 F.3d at 322–4;
Horton, 863 F.3d at 1051–52; Workman, 863 F.3d at 1319–21.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

United States v. Ganzer, 922 F.3d 579 (2019)

V.
Considering the reasonable behavior on the part of the federal
agents involved in seeking and executing the NIT warrant,
we do not ascertain any deterrence benefit to be derived
from applying the exclusionary rule here, much less one that
would outweigh the substantial cost that would result from
applying the rule, i.e., the inability to effectively prosecute
potentially thousands of Playpen users. Herring, 555 U.S. at
141, 129 S.Ct. 695 (“To the extent that application of the
exclusionary rule could provide some incremental deterrent

[to Fourth Amendment violations], that possible benefit must
be weighed against its substantial social costs.” (quoting
Krull, 480 U.S. at 352–53, 107 S.Ct. 1160)).
Accordingly, we hold that the good-faith exception to the
exclusionary rule is applicable to the NIT warrant and its
fruits and, therefore, AFFIRM the district court’s denial of
Ganzer’s motion to suppress.
All Citations
922 F.3d 579

Footnotes

1
2
3
4

5

6

7

8

The computer server hosting Playpen was seized from a web-hosting facility in Lenoir, North Carolina.
The network, a project of the United States Naval Research Laboratory, was originally designed and used to protect
government communications but is now available to the public.
Warrants similar to the warrant issued in the Western District of Texas have issued around the country as a result of the
NIT warrant, spawning a multitude of challenges in federal courts to the validity of the NIT warrant. See United States v.
Taylor, 250 F.Supp.3d 1215, 1222–23 (N.D. Ala. 2017) (compiling cases).
Section 636(a), a jurisdictional statute, provides in pertinent part:
Each United States magistrate judge serving under this chapter shall have within the district in which sessions are
held by the court that appointed the magistrate judge, at other places where that court may function, and elsewhere
as authorized by law—(1) all powers and duties conferred or imposed upon United States commissioners by law or by
the Rules of Criminal Procedure for the United States District Courts.
28 U.S.C. § 636(a)(1).
Rule 41(b), titled “Authority to Issue a Warrant,” generally provides that a magistrate judge “has authority to issue a
warrant to search for and seize a person or property located within [his or her] district.” Fed. R. Crim. P. 41(b)(1). The rule
also allows a magistrate judge to issue a warrant pertaining to a person or property outside of his or her district under
certain specified circumstances. Fed. R. Crim. P. 41(b). Two of those circumstances—those referenced in Rule 41(b)
(2) and (b)(4)—were potentially relevant to the NIT warrant at the time of its issuance. Rule 41(b)(2) provides that “a
magistrate judge with authority in the district has authority to issue a warrant for a person or property outside the district
if the person or property is located within the district when the warrant is issued but might move or be moved outside
the district before the warrant is executed.” Fed. R. Crim. P. 41(b)(2). Rule 41(b)(4) provides that “a magistrate judge
with authority in the district has authority to issue a warrant to install within the district a tracking device; the warrant may
authorize use of the device to track the movement of a person or property located within the district, outside the district,
or both.” Fed. R. Crim. P. 41(b)(4).
In reaching its conclusion, the district court found that the NIT warrant did not fit within Rule 41(b)(2) or (b)(4), either of
which would allow it to have extraterritorial effect. Specifically, the district court found that “logging into a website, the
server for which is in the appropriate district, does not rise to the level of the computer being ‘located within the district’ [as
required by Rule 41(b)(2)].” With respect to the applicability of Rule 41(b)(4), the district court rejected the notion that the
NIT was a “tracking device,” finding that “[t]he NIT is not a device, but a technique” and that it “did not ‘track’ Ganzer’s
computer under the ordinary understanding of the word ‘track.’ ”
The appellate court cases that had addressed the propriety of the NIT warrant and suppression of its fruits at the time
the parties’ briefs were filed are: Werdene, 883 F.3d 204; McLamb, 880 F.3d 685; Levin, 874 F.3d 316; Horton, 863 F.3d
1041; and Workman, 863 F.3d 1313. Three additional circuits took up these issues following the briefing in this case,
and, for the most part, resolved the issues like the circuits that had previously addressed them. See Moorehead, 912
F.3d 963; Kienast, 907 F.3d 522; Henderson, 906 F.3d 1109.
Specifically, the Court explained:
Many of the factors that indicate that the exclusionary rule cannot provide an effective “special” or “general” deterrent
for individual offending law enforcement officers apply as well to judges or magistrates. And, to the extent that the rule

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

United States v. Ganzer, 922 F.3d 579 (2019)

9
10

11

is thought to operate as a “systemic” deterrent on a wider audience, it clearly can have no such effect on individuals
empowered to issue search warrants. Judges and magistrates are not adjuncts to the law enforcement team; as neutral
judicial officers, they have no stake in the outcome of particular criminal prosecutions. The threat of exclusion thus
cannot be expected significantly to deter them.
Leon, 468 U.S. at 916-17, 104 S.Ct. 3405.
As discussed supra, the Court laid out four specific scenarios in which it would be clear that the law enforcement official
involved had “no reasonable grounds for believing that the warrant was properly issued.” Id. at 922–23, 104 S.Ct. 3405.
We add that although this court has not specifically addressed the issue of applicability of the good-faith exception to
warrants that are void ab initio, it has recognized that the exception can apply in the case of a warrantless search. See
United States v. De Leon-Reyna, 898 F.2d 486, 491 (5th Cir. 1990) (citing United States v. Williams, 622 F.2d 830, 840
n.1 (5th Cir. 1980) (en banc)); United States v. Comstock, 805 F.2d 1194, 1210 n.18 (5th Cir. 1986) (recognizing that
reliance on a magistrate is not a requirement for applicability of the good-faith exception). If the good-faith exception can
save the fruits of an illegal search from suppression where no warrant was issued, then, logically, the classification of
a warrant as “void ab initio” should have no bearing on the applicability of the exception in this circuit. For this reason
too, we find Ganzer’s argument to be without merit.
In support of his contention, Ganzer points to a letter dated September 23, 2013 from the DOJ to the chair of the
Advisory Committee on the Criminal Rules requesting an amendment that would “authorize[ ] a court in a district where
activities related to a crime have occurred to issue a warrant—to be executed via remote access—for electronic storage
media and electronically stored information located within or outside that district.” Mythili Raman, Letter to the Honorable
Reena Raggi, in Advisory Committee on Criminal Rules, Materials for April 7-8, 2014 Meeting at 171 (2013); available at
http://www.uscourts.gov/sites/default/files/fr_import/CR2014-04.pdf. According to the letter, “[t]he proposed amendment
would better enable law enforcement to investigate and prosecute botnets and crimes involving Internet anonymizing
technologies.” See Raman letter at 171. Ganzer further points out that at an April 7-8, 2014 meeting of the Advisory
Committee on Criminal Rules, a DOJ representative acknowledged that Rule 41(b) “on its face does not work with”
crimes involving anonymizing networks, like Tor, and suggested that, absent the requested amendment, the government
would be left to litigate the issue and “hope the courts [would] create an exception to the rule.” Advisory Committee on
Criminal Rules, Minutes at 13 (Apr. 7-8, 2014); available at http://www.uscourts.gov/sites/default/files/fr_import/criminalmin-04-2014.pdf. The government does not dispute that these interactions occurred or the DOJ’s efforts to have Rule
41(b) amended. Notably, Rule 41(b) was eventually amended to specifically allow for warrants like the NIT warrant.
However, this amendment did not take effect until December 1, 2016—almost two years after the NIT warrant’s issuance.

End of Document

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

